                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS                    i



                                             CLOSEOUT MEMORANDUM                                 I




Case Number: I04090029                                                          11           Page' 1 of 1



         The National Science Foundation, Office of Inspector General, conducted a review of fiscal year
         2000 through fiscal year 2003 closed awards that involved substantial participant support funds.
                                                          '
         As part of this review, we requested the grantee provide financial information and supporting
         documentation on the NSF award.2

         The initial documentation provided by the grantee revealed several questionable expenses that
         required additional clarification.
                                                                                                     I

         The grantee later provided additional documents and a financial report that adequately justified
         expenses charged to participant support funds.

         Accordingly, this case is closed.




         ' Footnote redacted
           Footnote redacted



<SF OIG Form 2 (1 1/02)
